FAR-27616 - Notice: FAR denied
Aug 5 at 1:01 PM
sjccommclerk@sjc. state. ma. us
To: jeanecoulter@yahoo.com
Supreme Judicial Court for the Commonwealth of
Massachusetts
RE: Docket No. FAR-27616
JEAN COULTER
vs.
JAMSAN HOTEL MANAGEMENT, INC. & others
Middlesex Superior Court No. 1681CV02632
A.C. No. 2019-P-0951
NOTICE OF DENIAL OF APPLICATION FOR
FURTHER APPELLATE REVIEW
Please take note that on August 5, 2020, the
application for further appellate review was denied.
Francis V. Kenneally, Clerk
Dated: August 5, 2020
To: Jean Coulter
Ross A. Kimball, Esquire
Emily Kaminska, Esquire
John Donovan, III, Esquire

la.

NOTICE : Summary decisions issued by the Appeals Court
pursuant to its rule 1:28, as amended by 73 Mass. App. Ct. 1001
(2009), are primarily directed to the parties and, therefore, may
not fully address the facts of the case or the panel's decisional
rationale. Moreover , such decisions are not circulated to the
entire court and, therefore, represent only the views of the
panel that decided the case. A summary decision pursuant to
rule 1:28 issued after February 25, 2008, may be cited for its
persuasive value but, because of the limitations noted above,
not as binding precedent. See Chace v. Curran. 71 Mass. App
Ct. 258, 260 n. 4 (2008).

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
19-P-951
JEAN COULTER
vs.
JAMSAN HOTEL MANAGEMENT, INC .
others J
MEMORANDUM AND ORDER PURSUANT TO
RULE 1:28
The plaintiff, Jean Coulter, appearing pro se,
brought in the Superior Court against a host of
defendants seeking damages for claims including
negligence, breach of contract, suit unfair and
deceptive business practices, fraud, slander, and
constitutional violations. 2 After hearing on
defendants motion
1 Jamsan Investments LLC; Aryan Hospitality LLC; Rushil
Hospitality LLC; Hartwell Hospitality LLC; MEENA
Investments.LLC, MEERA Hospitality LLC; MEERA LLC,
SHIVPAR, Inc.; Ayushi LLC;_JHM Fortune LLC; JHM Phase II
LLC; RONIT Hospitality II_LLC;_PAYAL Hotel LLC, • JHANVI
Hospitality LLC; AMISHA II LLC; JHM_Village LLC;
Lexington Mexican Restaurant Group, Inc.; AMISHA.LLC;
Quality Inn & Suites, Lexington, MA; Travelocity.com;_Choice
Hotels; Lexington Police Department; Mr. and Mrs. Hitest
Patel; Navin Patel; Archit Patel; Ashok Patel; Nikul Patel;
Kamlesh Patel; Kamleshkumar Patel; Rajeshkumar Patel; Dilip

2a.

Patel; Hitesh Patel; Michael G. Milazzo; and Kenneth J.
Biagioni.
2 Coulter's allegations stem from an unsatisfactory stay at
the Quality Inn & Suites in Lexington, where she was removed
from her room based on extensive use of the hotel's
complementary shuttle service.

To dismiss pursuant to Mass. R. Civ. P. 12 (b) (6),
365 Mass. 754 (1974), Coulter’s third amended
complaint was dismissed without prejudice on the
grounds that it failed to state a claim upon which
relief plausibly could be granted. That order,
however, permitted Coulter to file a further amended
complaint within sixty days. Fifty-seven days later,
Coulter filed an “Emergency Motion for Extension of
Time to File Amended Complaint,” and she attached
a copy of her fourth amended complaint. A second
judge, by margin endorsement on the defendant’s
opposition to that motion, ruled, “Even as revised,
the [fourth amended] complaint fails to state a claim
upon which relief can be granted (and certainly not
relief of $25,000 or more). This case is hereby
dismissed, with prejudice.” Judgment then entered.
Within days of judgment entering, Coulter filed
motions to amend the findings and for change of
venue, which were both denied. Coulter timely
appealed.
Discussion. On appeal, Coulter essentially
argues that her complaint was erroneously dismissed
and she was denied the opportunity to refile her
complaint in District Court, assuming that her
claims did not meet the statutory minimum for the
Superior Court. We are not persuaded.
In her argument on appeal, Coulter overlooks
that the second judge was ruling on her motion to

3a.

extend the deadline to file an amended complaint,
and not on the fourth amended complaint itself.
"Case management is committed to the discretion of
the ... judge, and we review the decision for an abuse
of discretion." 63 Mass. Eagle Fund. Ltd v. Sarkans
App. Ct. 79, 85 (2005).
Here, there was no abuse of discretion.
The reasons for denying Coulter's motion to extend
the deadline were well stated. Coulter's third and
proposed fourth amended complaints are nearly the
same3 and, as properly determined by two separate
judges, are equally deficient in their pleadings,
lannacchino v. Ford Motor Co.. 451 Mass. 623, 636
(2008) (plaintiff must provide " factual 'allegations
plausibly suggesting (not merely consistent with)' an
entitlement to relief' [citation omitted]) Indeed,
Coulter did not follow the first judge's instructions to
file an amended complaint within sixty days and, as
evidenced by the failures of the proposed
3 Coulter s fourth amended complaint added a discussion of
contacts between herself and Travelocity.com.

fourth amended complaint, any further extension
would have been futile.
Judgment affirmed.
Orders denying motions to amend
the findings and for change of
venue affirmed.
By the Court (Vuono, Milkey &
Desmond, JJ.4)
Clerk
June 12, 2020.
4 The panelists are listed in order of seniority.

4a.

JUDGMENT

Trial Court of Massachusetts
The Superior Court
DOCKET NUMBER Michael A. Sullivan, Clerk of
Court
1681 cv02632
Middlesex County
CASE NAME
COURT NAME & ADDRESS
Jean Coulter
Middlesex County Superior
vs.
Court - Woburn
Jamsan Hotel
200 Trade Center
Management Inc, et al Woburn. MA 01801
This action came before the Court, Hon.
Thomas P Billings, presiding, and upon
consideration
thereof,
It is ORDERED and ADJUDGED:
Even as revised, the [proposed Fourth Amended]
Complaint fails to state a claim upon which relief can
be granted (and certainly not relief of $25,000 or
more). This case is hereby dismissed, with prejudice.
DATE JUDGMENT
Clerk of Courts
ENTERED
ASST. CLERK
05/22/2018
Time Printed 05.22-2018 12:27:51

5a.

f

'\ys

commonwealth of Massachusetts

Tt.

SUPERIOR COURT____
Civil Action No.: 1681CV02632

MIDDLESEX, SS.

*

)
3
)
)
)
, \ JAMSAN HOTEL MANAGEMENT, INC, etal )
)
1
.Defendants
JEAN COULTER,
Plaintiff,

4

•f

■y.

^
5/

i & *

i!

1 MAvmou
I'M**.

KXTKIMSION OP TIME TO FTI.E AMENDED COMPLAINT
Now come the Defendants, Jamsan Hotel Management, Inc., Jamsan Investments

* £ l.’l«„Aran Hospitality LLC.Rushil Hospitality L.L.C, Hsttwett Hospitality LL.C, Meets
Hospitality, LLC, Ronit HospitaUty II LLC, .Amisha, L.LC„ Amisha it LLC, Hltest Patel,
Navin Patel, Ashok Patel, Niknl Patel, Kamlesh Patel, Ditip' Patel and Kenneth J. Biagioni,
(referred to hereinafter collectively 28 JJamsah Defendants"), ;and hereby state their opposition
to Plaintiffs Motion For Eatension of Time to File Amended Complaint
C?

/

The jainsaii

Defendants state that the Emergency Motion filed by the Plaintiff should be denied for the
^ foregoing reasons:
1. Oh September 13,40M, thepn.u Plaintiff commenced this action against the.Jamsan

\

Defendants, as well as several othei patties. The Plaintiff Bled,an Amended Complaint
on October 16,2016 *nd, shortly foeteafter, this matter was removed.to Federal District
Court, which' dismissed, foe claims against several Defendants.
<0 j

3 “i

u

3
lo

remanded bads to this Court on December 20,2016.

1261M7.1

6a.

TlilS matter was

Additional material
from this filing is
available in the
Clerk's Office.

